Vinson &Elkins
Dionne C. Lomax dlomax@velaw.com
Tel +1 .202.639.6610 Fax +1 .202 .879.8843

July 25, 2012
Markus H. Meier
Assistant Director
Federal Trade Commission
Bureau of Competition
Health Care Services and Products
601 New Jersey Avenue
Washington, D.C. 20001

Re:

Requestfor Staff Advisory Opinion Relating to the Non-Profit Institutions Act

Dear Mr. Meier,
On behalf of The Methodist Hospital System ("Methodist"), I am submitting a request for a
staff advisory opinion pursuant to 16 C.F.R. §l.l regarding the applicability of the NonProfit Institutions Act ("NPIA") to the sale of pharmaceuticals by Methodist to Baytown
EMS.
Factual Background
Methodist is a non-profit hospital system based in Houston, Texas, that purchases its
pharmaceuticals through a distributor at a GPO discount. Methodist is comprised of five
inpatient facilities as well as numerous outpatient surgery centers, imaging centers and
emergency care centers. The discounted pharmaceuticals purchased by Methodist are used
for its hospitalized patients for inpatient needs, emergency room patients, in-clinic treatment,
as well as periodic discharge prescriptions.
Baytown EMS is a division of the City of Baytown, Texas. It employs 21 paramedics and
provides critical medical care and emergency medical transportation services to the citizens
of Baytown. As the exclusive transport providers for 9-1 -1 service for the City of Baytown,
Baytown EMS responds to approximately 8,200 calls for service each year, resulting in
approximately 5,300 transports. l Baytown EMS patients are typically transported to
Methodist's Baytown facility, San Jacinto Methodist Hospital, a 392-bed general acute care
inpatient facility located approximately 30 miles from Houston. It is the only facility in the
Baytown area that offers a full range of acute care inpatient health services.

1

http://www.baytown.orglsafetyhealthlems

Vinson & Elkins LLP Attorneys at Law

2200 Pennsylvania Avenue NW. Suite 500 West

Abu Dhabi A ustin Beijing Dallas Dubai Hong Kong Houston l ondon Moscow

Washington, DC 20037-1701

New York Palo Alto Riyadh San Francisco Shang hai Tokyo Washi ngton

Tel +1 .202.639.6500 Fax +1 .202.639.6604 www.velaw.com

V&E

Markus H. Meier

July 25, 2012 Page 2

As you may know, drug shortages in the United States have been increasing in frequency and
severity in recent years and adversely affecting patient care. As a result of these shortages,
Baytown EMS has experienced difficulties keeping its ambulances stocked with certain
prescription drugs that are critical to ensure quality patient care. In an effort to resolve the
problem, Baytown EMS seeks to purchase certain drugs from Methodist that are in short
supply.
Methodist's central institutional function is to deliver comprehensive acute health care
services, including pharmaceuticals, to all of its patients. Its patients include Baytown area
residents who rely on Baytown EMS ' s emergency transport services. Methodist is dedicated
to quality patient care, and thus, would prefer that certain drugs be administered to patients
while in transport to its Baytown facility rather than once the patient has arrived at the
hospital. The administration of critical drugs at the first point of care rather than after
transport can be critical to a patient's clinical outcome. Methodist, therefore, seeks to sell
pharmaceuticals to Baytown EMS to ensure that the patients it serves receive critical care in
a timely manner. Methodist proposes to sell pharmaceuticals to Baytown EMS at a price that
does not exceed its direct costs in purchasing and transporting the drugs. In most cases the
drugs are likely to be picked up by paramedics employed by Baytown EMS when making
normal transport runs to Methodist's Baytown facility.
For the reasons explained below, we believe that the NPIA should apply to pharmaceuticals
transferred by Methodist to Baytown EMS, but are writing to request an opinion from the
FTC staff regarding the extension of the NPIA to this government agency.
Analysis

The Robinson-Patman Act ("the Act") prohibits price discrimination between different
purchasers to whom contemporaneous sales of like goods are made, where the effect of such
discrimination may be to adversely affect competition. The Non-Profit Institutions Act
("NPIA") exempts from the Robinson-Patman Act "purchases of . .. supplies for their own
use by schools, colleges, universities, public libraries, churches, hospitals, and charitable
institutions not operated for profit.,,2 To fall within the NPIA exemption to the RobinsonPatman Act, an organization must be an "eligible entity" and must use the exemption to
purchase supplies for its "own use.,,3

' IS U. S.c. § 13c(emphasis added).
3 Abbott Laboratories v. Portland Retail Druggists Ass 'n" 425 U.S. 1 (1976).

V&E

Markus H. Meie r

July 25, 20 12 Page 3

According to the Commission's holding in St. Peter's Hospital, the Act covers the transfer of
supplies, at cost, from a non-profit hospital to another charitable organization that is entitled
to NPIA protection for its own purchases, so long as those supplies are for the receiving
institution's "own use" within the meaning ofthe NPIA. 4
I.

Eligibility of Baytown EMS for Exemption from the Robinson-Patman Act
Under the NPIA

The basic purpose of the Robinson-Patman Act is to eliminate unfair competition among
those engaged in private enterprise where such practices might result in restraint of trade or
injury to competition. The law seeks to cover within its scope every person engaged in
business whose activities might restrain or monopolize commerce. Courts have held the
federal government immune from liability under the Act, and in the NPIA, Congress
specifically excluded non-profit organizations and certain other entities that are not otherwise
engaged in competition in the private market.
As a division of the City of Baytown, Baytown EMS is a government instrumentality entitled
to coverage under the NPIA. The rationale underlying the exclusion of public libraries,
hospitals, and other non-profit institutions from the proscriptions of the Robinson-Patman
Act are easily extended to Baytown EMS. Baytown EMS is engaged in a traditional
government function of ensuring the health, safety and welfare of area residents. It does not
compete with private parties within the meaning of the Act (e.g., it is the exclusive EMS
service in Baytown), and its activities are not affected by a profit-making motivation. To the
contrary, the services provided by Baytown EMS are undertaken on behalf of the City of
Baytown to ensure the health Of its citizens. In that sense the central institutional function of
Baytown EMS is to provide a traditional government function, not to gain competitive
advantage in the pri vate market. Thus, Baytown EMS's eligibility under the NPIA appears
entirely consistent with the intent of the NPIA to make the Act's exemption available to
hospitals, public libraries and other charitable organizations.
2.

Pharmaceuticals for Bavtown EMS 's "Own Use"

The sole purpose of Baytown EMS is to transport patients in need of emergency medical
services to an area inpatient facility for acute care medical treatment. To alleviate the
instances in which Baytown EMS lacks the appropriate drugs (as a result ofthe national drug
shortage) to treat patients at the point of care, it seeks to purchase drugs from Methodist. The
pharmaceuticals will be used by Baytown solely for the treatment of patients under its care

4

St. Peter·s Hospital of the City of Albany. 92 F.T.C. 1037 (1978).

V&E

Mar1<.us H. Meier

July 25, 2012 Page 4

prior to or while en route to an acute care medical facility. The immediate administration of
such drugs will enhance Baytown's ability to provide quality care to patients prior to their
arrival at an acute care medical facility and enhance its ability to have good patient outcomes.
Since the sole purpose of Baytown' s use of the pharmaceuticals will enable it to carry out its
activities as an emergency medical service provider to provide quality health care to area
residents, we believe that the provision of discounted pharmaceuticals to Baytown EMS as
part of its provision of emergency medical services to patients would be for its "own use,"
and thus would be covered by the NPIA exemption.
Conclusion

As discussed above, we believe that the sale of pharmaceuticals by Methodist to Baytown
EMS should receive coverage under the NPIA. Given its institutional purpose and function,
Baytown EMS should be characterized as an NPIA-eligible institution. The pharmaceuticals
will be sold to Baytown EMS at cost and will be used solely by Baytown EMS to care for
patients prior to or while transporting patients to Methodist's Baytown facility or other acute
care facilities. In many ways, the services provided by Baytown EMS are essentially an
extension of Methodist's basic services to area residents and contributes directly to
Methodist's ability to fulfill its central institutional function to deliver high-quality
comprehensive acute health care services to its patients.
Should you have any questions or comments, please do not hesitate to contact me at 202-6396610.
Sincerely,

~ 4~

Dionne C. Lomax
?"
Counsel for The Methodist Hospital System

US 1498924v.1

